      ADVISORY REPORT

  COSTS CLAIMED BY THE STATE
   OF MAINE DEPARTMENT OF
     INLAND FISHERIES AND
  WILDLIFE, UNDER FEDERAL AID
   GRANTS FROM THE U.S. FISH
  AND WILDLIFE SERVICE FROM
      JULY 1, 1996 THROUGH
          JUNE 30, 1998




JANUARY 2003   Report No. 2003-E-0009
                                                                   X-GR-FWS-0014-2003

            United States Department of the Interior
                      OFFICE OF INSPECTOR GENERAL
                                  Washington, D.C. 20240



                                                                         January 14, 2003

                             ADVISORY REPORT

Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of Maine Department of
           Inland Fisheries and Wildlife under Federal Aid Grants from the U. S. Fish
           and Wildlife Service from July 1, 1996 through June 30, 1998
           (No.2003-E-0009)

                                    Introduction
       This report presents the results of our performance of procedures to review
another audit agency’s work related to costs claimed by the State of Maine Department of
Inland Fisheries and Wildlife (Department) under Federal Aid grants from the U.S. Fish
and Wildlife Service (FWS) for the period July 1, 1996 through June 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts),
authorize FWS to provide Federal assistance grants to states to enhance their sport fish
and wildlife programs. The Acts provide for FWS to reimburse the states up to
75 percent of all eligible costs incurred under the grants. Additionally, the Acts specify
that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the State’s fish and game agencies. In addition, FWS provides
grants to the states under the Clean Vessel Act and the Endangered Species Act.

       In May 2000, another audit agency prepared a draft report on the results of its
review of the Federal Aid program grants and payments awarded by the FWS to the State
of Maine for state fiscal years 1997 and 1998. The scope of the work to be performed by
the audit agency, as stated in its draft report, was to evaluate (1) the adequacy of the
Department’s accounting system and related internal controls; (2) the accuracy and
eligibility of the direct and indirect costs claimed by the Department under the grant
agreements; (3) the adequacy and reliability of the Department’s hunting and fishing
license fees collection and disbursement process; and (4) the adequacy of the
Department’s purchasing system and related internal controls. The audit was also to
include an analysis of other issues considered to be sensitive and/or significant to the
FWS. The audit work at the Department covered claims totaling approximately
$17.6 million on FWS grants that were open during fiscal years ended June 30, 1997 and
1998 (Appendix 1).

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with FWS. The FWS did not renew or extend
its agreement with the other audit agency. At the time of expiration, final audit reports
on several uncompleted audits had not been issued and the audits were in various stages
of the audit and reporting processes. The audit agency indicated in a September 26, 2001
memorandum that its supervisors had not reviewed the working papers for the Maine
audit to ensure that (1) sufficient, competent and relevant evidence was obtained, (2)
evidential matter contained in the working papers adequately supported the audit findings
in the report, and (3) the auditors used sound auditing techniques and judgment
throughout the audit.

        On September 20, 2001, FWS and the Department of the Interior (DOI) Office of
Inspector General (OIG) entered into an Intra-Departmental Agreement under which
FWS requested the OIG to (1) review the audit work performed by the audit agency
including its working papers, summaries and draft reports for these audits and (2) issue
reports on the findings that were supported by the working papers. Accordingly, our
review was limited to performing the procedures set forth in the Agreement and our
conclusions presented in the report are limited to findings substantiated by the working
papers. We did not perform any additional audit work of the grantee’s records and the
limited work performed under these procedures does not constitute an audit by the OIG
in accordance with Generally Accepted Government Auditing Standards.

       The findings impacting Maine’s administration of the Federal Aid program are
presented in the body of the report and other management issues are presented in
Appendix 2.

                                Results of Review
       The results of our review of the working papers disclosed the following:

       •   Hunting and Fishing license revenues estimated to be $1,245,839 were
           diverted to activities not related to management of the State’s fish and wildlife
           resources.

       •   Interest totaling $151,244, applicable to the estimated diverted license
           revenues, was foregone.


                                             2
       •   Interest of $271,598 earned on license revenues that were deposited into the
           general fund from July 1, 1996 to June 30, 1998 were not credited to the
           support of State fish and wildlife activities.

A. Estimated Diversion of License Revenues - $1,245,839

        The working papers show that the Department deposited hunting and fishing
license revenues (restricted funds) into the general fund along with revenues collected
from registering snowmobiles, boats, and all terrain vehicles (unrestricted funds).
Revenues in this account were used to fund “Warden Services” which included both fish
and wildlife related activities and non-fish and wildlife activities such as search and
rescue, management of snowmobiles and all terrain vehicles, and accident investigations.
 However, there were no controls to ensure that the restricted license revenues were used
solely for fish and game related activities. Since restricted and unrestricted funds were
commingled in the general fund, it was not possible to reconcile the funding to specific
types of expenses. The Code of Federal Regulations (50 CFR 80.4) states, “Revenues
from license fees paid by hunters and fisherman shall not be diverted to purposes other
than the administration of the State fish and wildlife agency.” Part 80.4 (b) states that the
administration of a state agency “includes only those functions required to manage the
fish and wildlife-oriented resources of the State…”

        To determine whether license revenues funded non-fish and wildlife (ineligible)
activities, the working papers included and analysis of the time charges by the wardens
and deposits of revenue for fiscal years 1997 and 1998. Specifically, the working papers
show that warden time sheets were reviewed to compute annual percentages of time
charged to ineligible activities. Next, the working papers show the percentage that was
applied to total warden expenses for each year to calculate the amount of funds annually
expended on ineligible activities. Finally, the working papers show that the funds used
for ineligible activities were compared to the amount of unrestricted revenues deposited
into the account. This calculation identified total expenditures of license revenues on
ineligible activities in excess of unrestricted deposits of $1,245,839 for fiscal year 1997
as follow:

                                                           1997               1998
  A. Total Warden Expenses                               $11,116,884         $10,993,187
  B. Ineligible Activity (Percentage)                         30.58 %            33.22 %
  C. Total ineligible costs (AxB)                           3,399,543          3,651,937
  D. Unrestricted Revenue                                   2,153,704          3,772,684
  E. Diverted License Revenue (C-D)                        $1,245,839          ($120,747)




                                              3
        Since there were sufficient unrestricted revenues during fiscal year 1998 to offset
the ineligible warden services costs, the working papers only identified the $1,245,839
for fiscal year 1997 as a diversion.

Recommendations

       We recommend that the FWS:

       1. Resolve the estimated diverted license revenues of $1,245,839.

       2. Require that the Department establish a separate account for recording receipts
and expenditures of revenues.

Department and U. S. Fish and Wildlife Responses

        Departmental officials stated that, “It is difficult to know exactly how the
information used to determine the estimated diverted license revenues was derived. The
officials added that they used the “Department’s annual financial report for FY [fiscal
year] 1997 and concluded that no diversion occurred.” The officials stated that they
believe that certain expenditures that were identified as ineligible by the auditors should
have been eligible.

        The Department determined that the ineligible percentage should have been 21.25
percent instead of the 30.58 percent used by the auditors. The officials added that the
percentage used by the Department was determined by removing time spent on dog leash
law enforcement, environmental law enforcement, and a prorated portion of public
relations and training from the list of ineligible activity used by the auditors. The
Department added that (1) the enforcement of the state’s dog leash law is only carried out
when wildlife is being threatened by free ranging dogs, (2) enforcement of environmental
laws is the primary way of protecting fish and wildlife habitat from degradation, (3)
public relations are an important part of fish and wildlife conservation, and (4) training is
an important part of the Warden Service fish and wildlife enforcement work.
Departmental officials concluded that all of these activities should be considered an
eligible activity. The Department concluded that by using the 21.25 percent ineligible
rate resulted in sufficient unrestricted funds during fiscal year 1997.

       The FWS stated that the Department’s calculation of 21.25 percent seems more
appropriate and that no diversion occurred.

Office of Inspector General Comments

        The supporting documentation for the information included in the Department’s
response was not provided and we could not determine the accuracy of the information.
Therefore, we believe that FWS needs to review the documentation before resolving this
issue. In addition, neither the Department nor the FWS addressed Recommendation 2.
Both recommendations should be addressed as part of the corrective action plan.


                                              4
B. Foregone Interest - $151,244

         The working papers show that the State earned interest on all fund balances in the
general fund. The working papers included a calculation of the interest earned based on
the yearly rates received by the State of Maine Treasurers Office on excess funds. The
lost interest for the diverted license fees for fiscal year 1997 totaled $151,244 based on
simple interest of approximately 6 percent per year over the two-year period, or 12.14
percent times the $1,245,839 in license fee revenues that were diverted to ineligible
activities.

Recommendation

       We recommend that the FWS resolve the $151,244 in interest associated with the
diverted license fees for fiscal year 1997.

Department and U.S. Fish and Wildlife Service Responses

       The Department and the FWS responded that they do not believe there is any
foregone interest.

Office of Inspector General Comments

       The amount, if any, of interest will depend upon the results of the FWS review of
the Department’s documentation regarding the potential diversion of license revenues.

C. Carrying Account - $271,598

        In July 1990 the Department converted from an independent agency with a
dedicated account to an agency within the general fund. When the conversion took place,
there was a balance of hunting and fishing license revenues of $4,138,941 in a carrying
account that was transferred into the general fund and a dedicated account was not
established.

        License revenues transferred to the general fund have been invested in short-term
Treasury notes. However, interest has not been credited to the license revenue carrying
account balance, even though the State earned interest on these funds. The working
papers included a calculation of the amount of interest applicable to the license revenues
using simple interest based on Treasury rates that the general fund earned. These rates
were applied in 6-month intervals during the audit period from July1, 1996 through
December 31, 1998 and resulted in total interest of $271,598 as shown below.




                                             5
                                Carrying
        Time Interval        Account Balance        Interest Rate     Interest Due
      7/1/96 – 12/31/96         $2,510,514             2.980%              $74,813
      1/1/97 – 6/30/97           2,253,943             3.080%               69,421
      7/1/97 – 12/31/97          1,997,371             3.080%               61,519
      1/1/98 – 6/30/98           2,198,508             2.995%               65,845
             Total                                                        $271,598

       This report only includes interest calculated for the two-year audit period, but it
should be noted that interest was earned from the conversion in July 1990 until June 30,
1996 and continues to be earned by the State on carrying account funds that have not
been credited to the license fund.

        While the Department concurred with the carrying account balances and interest
calculation, it did not agree that the license fund was due additional monies. The
Department maintains that the amount of general funds used to support fish and wildlife
activities exceeded the interest of $251,598. Support for the Department’s position was
not requested or reviewed by the original audit agency.

Recommendation

        We recommend that the FWS resolve the $271,598 in lost interest from the excess
funds deposited in the carrying account but not credited to the Department’s accounts. In
resolving this issue, FWS should obtain and review grantee support for general fund
expenditures in support of fish and wildlife activities to determine whether they exceed
the lost interest.

Department and U.S. Fish and Wildlife Service Responses

        Departmental officials responded that they disagree with the finding. The
officials stated that in 1996, the State Budget Office established a procedure to calculate
interest on fish and wildlife revenues. The Department added that, “Specifically, the
Department and Budget Office agreed that interest should be calculated on IF&W [Inland
Fisheries and Wildlife] revenues utilizing a monthly cash flow analysis which tracks
revenues and expenditures on an actual basis and that the balance forward should be the
ending balance of the prior year’s cash flow analysis based on actual revenues and
expenditures, not appropriations.” Departmental officials added that given this process,
there was no interest earned in fiscal years 1997 or 1998 and in fact there were loses in
both years. The Department also attached the interest analysis conducted by its staff.

       The FWS responded that the procedures used by the Department seemed
appropriate and that there were no interest earned during this period.



                                             6
Office of Inspector General Comments

       The Department did not provide supporting documentation for interest the
analysis conducted by its staff, and therefore we could not verify the information
provided in the Department’s response. We recommend that the FWS review the
supporting documentation as part of the corrective action plan.

       In accordance with the Departmental Manual (360 DM 5.3), please provide us
with your written comments regarding your analysis of the data submitted by the
Department to resolve the recommendations by April 18, 2003.

        This advisory report is intended solely for the use of grant officials of the U.S.
Fish and Wildlife Service, and is not intended for, and should not be used by anyone who
is not cognizant of the procedures that were applied to the review of another audit
agency’s work.

        If you have any questions regarding this report, please contact Mr. Gary Dail,
Federal Assistance Audit Coordinator, at (703) 487-8011.

cc: Regional Director, Region 5
    U.S. Fish and Wildlife Service




                                            7
                                                                         APPENDIX 1

         MAINE DEPARTMENT OF INLAND FISHERIES
     AND WILDLIFE SCHEDULE OF GRANT COSTS CLAIMED
            JULY 1, 1996 THROUGH JUNE 30, 1998


                    GRANT             AMOUNT            FEDERAL
                    NUMBER*           CLAIMED            SHARE
                    W-79                  $799,763        $582,201
                    W-81-D                3,784,090       2,752,853
                    W-82-R                2,960,226       2,155,850
                    W-83-C                  929,831        680,004
                    FWA-W                   342,489        256,867
                    FWA-F                      71,217       51,016
                    FWA-A                      14,542       10,907
                    E-1                     154,818        122,175
                    F-28-P                5,437,314       3,966,615
                    W-84-L                1,064,527        798,352
                    F-38-D                     85,001       63,750
                    F-30-L                  258,457        193,843
                    F-31-D                  747,695        561,678
                    F-37-L                  240,000        180,000
                    C-L-1                   668,359        158,000
                          TOTAL        $17,558,329      $12,534,111



*Grant number segments active during the audit period were consolidated for reporting
purposes.




                                           8
                                                                               APPENDIX 2

                              MANAGEMENT ISSUES

       The audit agency’s working papers concluded that the Department’s purchasing
system and related internal controls were adequate for Federal Aid participation. The
working papers also identified two management issues that the Maine Inland Fisheries
and Wildlife Department and the U.S. Fish and Wildlife Service should evaluate as
follows:

A. Accounting System

        The system used by the Department to account for Federal Aid grant costs was
not efficient. While the system is capable of tracking costs by grant and specific cost
element, the working papers indicated that the Department stated that it would be too
cumbersome for the accounting personnel to enter the additional data necessary to track
these costs by grant when processing expense documentation. In addition, the
Department’s accounting personnel have not been trained on the uses of the system.
Consequently, the Department spent a significant amount of time reconciling monthly
cost accumulation sheets to specific grants to determine costs incurred by element on
each grant.

B. Vacation and Holiday Pay

        The Code of Federal Regulations (43 CFR, Part 12.62) states that allowable costs
for state and local governments will be determined in accordance with Office of
Management and Budget Circular A-87. Part 11 d (2) of Attachment B to Circular A-87
states that fringe benefits are allowable if “the costs are equitably allocated to all related
activities, including Federal awards.” The working papers indicated that the Department
allocates vacation and holiday pay to grants based on the pay cycle that leave is taken.
This could result in a disproportionate amount of vacation and holiday pay being charged
to Federal Aid grants.




                                              9
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
